E

2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. 19-257
CALIFORNIA TROUT & TROUT UNLIMITED,
Petitioners,

v.
HOOPA VALLEY TRIBE & FEDERAL
ENERGY REGULATORY COMMISSION, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of November, 2019, send
out from Omaha, NE 12 package(s) containing* copies of the REPLY IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
RICHARD ROOS-COLLINS
JULIE GANTENBEIN
WATER AND POWER
LAW GROUP PC
2140 Shattuck Avenue,
Suite 801
Berkeley, CA 94 704
Counsel for Petitioner
California Trout

ANDREW H. ERTESCHIK
Counsel of Record
SAADGUL
JOHN MICHAEL DURNOVICH
COLIN R. MCGRATH
NATHANIEL C. ZINKOW
POYNER SPRUILL LLP
Post Office Box 1801
Raleigh, NC 27602
(919) 783-2895
aerteschik@poynerspruill.com
Counsel for Petitioners

BRIAN JOHNSON
TROUT UNLIMITED
5950 Doyle Street,
Suite 2
Emeryville, CA 94608
Counsel for Petitioner
Trout Unlimited

Subscribed and sworn to before me this 6th day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTIE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38975

Thomas Paul Schlosser
Thane Dennis Somerville
Morisset, Schlosser & Jozwiak
801 Second Avenue
1115 North Building
Seattle, WA 98104-1509
(206) 386-5200
t.schlosser@msaj.com
t.somerville@msaj.com
Counsel for Respondent Hoopa Valley Tribe
*3 copies
Robert Harris Solomon
Bob Kennedy
Federal Energy Regulatory Commission
888 First Street, NE
Washington, DC 20426
(202) 502-6088
robert.kennedy@ferc.gov
robert.solomon@ferc.gov
Counsel for Respondent Federal Energy Regulatory Commission
*3 copies
Paul S. Weiland
Ashley J. Remillard
Nossaman LLP
18101 Von Karman Avenue
Suite 1800
Irvine, CA 92612
(949) 833-7800
pweiland@nossaman.com
aremillard@nossaman.com
Counsel for Intervenor Siskiyou County, California
*3 copies
Charles R. Sensiba
Morgan M. Gerard
Troutman Sanders LLP
401 9th Street NW, Suite 1000
Washington, DC 20004
(202) 27 4-2950
charles.sensiba@troutman.com
morgan.gerard@troutman.com
Counsel for Intervenor PacifiCorp
*3 copies

Stuart L. Somach
Somach Simmons & Dunn
500 Capitol Mall, Suite 1000
Sacramento, CA 95814
(916) 446-7979
ssomach@somachlaw.com
Counsel for Respondent-Intervenor Klamath Water Users Association
*3 copies
Jona Maukonen
Office of the Attorney General
State of Oregon
1162 Court Street, NE
100 Justice Building
Salem, OR 97301
(503) 378-4400
jona.j .maukonen@doj.state.or.us
Counsel for Amici Curiae States of Oregon, Alaska, Hawaii, Idaho,
Maine, Massachusetts, Michigan, Minnesota, New Jersey, Rhode
Island, South Dakota, Vermont, Washington, and Wyoming
*1 copy
Sonia A. Wolfman
Office of the Attorney General
2425 Bristol Court SW, 2nd Floor
Olympia, WA 98504-0117
(360) 586-6770
sonia.wolfman@atg.wa.gov
Counsel for Amici Curiae States of Washington, Hawaii, Idaho,
Maine, New Hampshire, New York, Utah, and Wyoming
*1 copy
Eric M. Katz
Adam Levitan
Office of the Attorney General
State of California
300 South Spring Street
Los Angeles, CA 90013
(213) 269-6000
eric.katz@doj.ca.gov
adam.levitan@doj.ca.gov
Counsel for Amicus Curiae California State Water Resources Control Board
*1 copy

Robert A. N asdor
American Whitewater
365 Boston Post Road, Suite 250
Sudbury, MA 01776
(978) 443-2411
bob@americanwhitewater .org
Counsel for Amici Curiae Karuk Tribe, the Yurok Tribe, American
Whitewater, California Sportfishing Protection Alliance, South Yuba
River Citizens League, California Outdoors, Friends of the River,
and Idaho Rivers United
*1 copy
Amy Cordalis
Yurok Tribe
190 Klamath Boulevard
Klamath, CA 95548
(707) 482-1350
acordalis@yuroktribe.nsn.us
Counsel for Amicus Curiae Yurok Tribe
*1 copy
Andrew M. Hawley
Western Environmental Law Center
1402 3rd Avenue
Suite 1022
Seattle, WA 98101
(206) 487-7207
hawley@westernlaw.org
Counsel for Amici Curiae Karuk Tribe, the Yurok Tribe, American
Whitewater, California Sportfishing Protection Alliance, South Yuba
River Citizens League, California Outdoors, Friends of the River,
and Idaho Rivers United
*1 copy
Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States
*3 copies

